APPENDIX

Appendix

A-l
NO. 18-1036

UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PAUL V. CANNON, Plaintiff, Appellant,
v.
BANK OF AMERICA, NATIONAL ASSOCIATION;
MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, INC.; BANK OF NEW YORK MELLON,
as Trustee for CWABS Asset-Backed Certificates
Trust 2007-9; SPECIALIZED LOAN SERVICING,
LLC,
Defendants, Appellees.

Appeal from the United States District Court
District of Massachusetts
William G. Young, District Judge, Presiding

JUDGMENT

Entered February 21, 2019
Before TORRURELLA, LYNCH and KAYATTA,
Circuit Judges

(

Appendix

A-2

Paul Cannon appeals from the district court's
dismissal of his various claims under Fed. R. Civ. P.
12(b)(6). After careful de novo review of the record
and the parties’ arguments on appeal, we affirm. To
the extent that we do not deem the appellant’s claims
of error waived for lack of sufficient development in
his opening brief, see United States v. Zannino, 895
F.2d 1, 17 (1st Cir. 1990), we find them
unpersuasive. Even if we were to bypass any waiver,
we would agree with the district court’s conclusion
that none of the claims advanced in the complaint
states a plausible case for relief.
Affirmed. See 1st Cir. Loc. R. 27.0(c).

By the Court:
Maria R. Hamilton, Clerk

Appendix

A-3
No: 17-cv-10295-WGY
Civil Action

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CANNON
Plaintiff
v.
BANK OF AMERICA et al
Defendant.
Complaint for:
VIOLATIONS OF THE FAIR DEBT COLLECTION
PRACTICES ACT; VIOLATIONS OF FAIR CREDIT
REPORTING ACT;
MISREPRESENTATION;
UNJUST ENRICHMENT;
CIVIL CONSPIRACY;
CANCELLATION OF INSTRUMENTS; and
SLANDER OF TITLE
William G. Young, District Judge, Presiding
ORDER OF DISMISSAL
Filed February 8, 2010

Appendix

A-4

YOUNG, D.J.
After a ruling on December 12, 2017, this Court
Orders that Defendants’ Motions to Dismiss are
Allowed and the above entitled action be and hereby
is Dismissed as matter of law.
Robert M. Farrell
Clerk
By:

December 12, 2017

/s/ Jennifer Gaudet
Deputy Clerk

.

Appendix

A-5
No: 17-cv-10295-WGY
Civil Action

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

PAUL V. CANNON,
Plaintiff,
v.
BANK OF AMERICA, et al,
Defendants.

TRANSCRIPT OF HEARING
Before Judge William G. Young
Motion to Dismiss
United States District Court
District of Massachusetts (Boston)
One Courthouse Way
Boston, Massachusetts 02210
Tuesday, December 12, 2017

REPORTER: RICHARD H. ROMANOW, RPR
Official Court Reporter
United States District Court
One Courthouse Way, Room 5510, Boston, MA 02210
bulldog@richromanow.com

Appendix

A-6

APPEARANCES
PAUL V. CANNON
256 Winchester Street
Newton, MA 02461
(617) 332-8291
Email: Specializedrepair8@gmail.com
Pro Se Plaintiff
JOHN H. McCANN, III, ESQ.
Shechtman Halperin Savage, LLP
1080 Main Street
Pawtucket, RI 02860
(401) 272-1400
Email: Jmccann@shslawfirm.com
For Bank of America and Mortgage Electronic
Registration Systems, Inc.
CHRISTINE KINGSTON, ESQ.
Nelson Mullins Riley & Scarborough, LLP
One Post Office Square, 30th Floor
Boston, MA 02109
(617) 217-4700
Email: Christine.kingston@nelsonmullins.com
For Bank of New York Mellon and Specialized Loan
Servicing, LLC.

Appendix

A-7
PROCEEDINGS

(Begins, First Call, 2:00 p.m.)
THE CLERK: Civil Matter 17-10295, Cannon versus
Bank of America.
THE COURT: So is Mr. Cannon here?
MR. CANNON: Yes, your Honor.
THE COURT: Mr. Cannon, are you going to get an
attorney here?
MR. CANNON: I can't afford one right now, your
Honor.
THE COURT: So you want to argue it yourself?
MR. CANNON: Yes.
THE COURT: How long for the attorneys and for Mr.
Cannon?
MS. KINGSTON: 5 minutes.
THE COURT: Second call?
MS. KINGSTON: 5 minutes, yes.
THE CLERK: Very well, second call.
(Short recess.)
(Begins, Second Call, 2:05 p.m.)
THE CLERK: Now hearing Civil Matter 17-10295,
Cannon versus the Bank of America.
THE COURT: And would Mr. Cannon and counsel
come forward.
(To the podium.)
THE COURT: Now
and Mr. Cannon has
introduced himself, so would counsel for the defense
introduce themselves.
MS. KINGSTON: Good afternoon, your Honor,
Christine Kingston on behalf of the defendants, Bank
of New York Mellon and Specialized Loan Servicing,
LLC.

Appendix

A-8

MR. McCANN: Good afternoon, your Honor, John
McCann on behalf of Bank of America NA and
Mortgage 9 Electronic Registration Systems, Inc.
THE COURT: Thank you. Mr. Cannon, I have read
your complaint here - and I've read all the papers in
fact, and you have a variety of arguments. Some of
them have already been dismissed with prejudice,
which means you had to appeal, you can't come back
and start another case, others of them were
dismissed without prejudice, and so you have the
right to come back, but all of them appear, it seems
to me, to fall -- to deal with events too far in the past
for a court to deal with them. So my - and I tell you
this having come on -- you ought to know what I'm
thinking coming on the bench. So I think that you
lose.
One of the arguments, your argument about MERS
authority, interestingly I agree with you, but I'm a
trial judge and the law has moved the other way, the
law is pretty unequivocal that you can't really
challenge — you can't, um, since they have the deed
and acted - and they have a mortgage note and
they've acted in — in accordance with that, you can't
raise those matters.
So you do have the right to be heard, and I'll hear
you, but I think I must dismiss your claims giving
you a right to appeal.
I'll hear you, sir.
MR. CANNON: Okay, your Honor. Thank you.
I'm filing my opposition based on that their motion is
premature because no discovery has taken place on
the facts, on securities fraud, the attorneys are not
true witnesses.

Appendix

A-9

THE COURT: But just a moment. A motion - this is
a motion to dismiss and so the theory is I don't need
to consider facts developed by discovery because if I
look at your complaint -- and I have to take
everything your way in your complaint, their position
is that legally you cannot win -- not that they
disagree with you, just that legally you can't win on
this complaint.
And I can go over the various, um, claims, if you
want, but all of them, it seems to me, you, um -either we've heard them before and dismissed them
with prejudice or you've missed the statute of
limitations.
Let me just check with the defendant and see if I've
got that right. That's your position, right?
MR. McCANN: That's correct, your Honor.
THE COURT: All right. Fine. So long as you're going
to defend that position, we'll be back to Mr. Cannon.
I think that's right, Mr. Cannon. So I'm disposed to
dismiss your complaint. That does give you the right
to appeal to a higher court - I'm not inviting you to
appeal, but what it means is I'll take everything in
your complaint as true, every factual allegation in
your complaint as true, and having taken it as true, I
have to say to you even then you don't win, and so
legally I have no choice but to dismiss your action.
Is there some argument I haven't considered?
MR. CANNON: Well, what I'm dealing with here is
securities fraud, um, versus a loan that was
presented and the loan that was presented is not the
deal that, um, transpired, it's a securities, um, deal
done for the sake of Wall Street investors where
mortgages were pooled or securitized and sold to

Appendix

A-10

investors on Wall Street, thereby negating the
validity of the loan documents, therefore it's null and
void. And also -THE COURT: But it isn't, under the law the
securitization of loan documents isn't null and void,
and it isn't, at least ipso facto, securities fraud, and I
-- and there's no basis to claim those assertions here.
No I said that wrong. There's no basis to reach that
conclusion on the assertions in your complaint. The
action must be dismissed. It is dismissed as a matter
of law. You have the right to appeal. That's the order.
MR. CANNON: Thank you, your Honor.
(Ends, 2:15 p.m.)
CERTIFICATE
I, RICHARD H. ROMANOW, OFFICIAL COURT
REPORTER, do hereby certify that the foregoing
record is a true and accurate transcription of my
stenographic notes before Judge William G. Young,
on Tuesday, December 12, 2017, to the best of my
skill and ability.
Is/ Richard H. Romanow

12-21-17

RICHARD H. ROMANOW

Date

